FR833282333_GOOGLE STORE FINANCING CREDIT CARD
TC PLCC PDF WF1419227A
10/19

SYNCHRONY BANK
SECTION I: RATES AND FEES TABLE
GOOGLE STORE FINANCING CREDIT CARD ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for Phone
Purchases

0.00%

APR for All Other
Purchases

29.99%

How To Avoid Paying
Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

Fees
Penalty Fees
l

Late Payment

Up to $39.

How We Will Calculate Your Balance: We use a method called “daily balance.” See your credit card account agreement
below for more details.

1

SECTION II: RATES, FEES AND PAYMENT INFORMATION
GOOGLE STORE FINANCING CREDIT CARD ACCOUNT AGREEMENT
How Interest is Calculated
Your Interest Rate

We use a daily rate to calculate the interest on the balance on your account each day. The daily rate for purchases
is the APR times 1/365. Interest will be imposed in amounts or at rates not in excess of those permitted by
applicable law.
The daily rate for Phone Purchases, as defined below, is 0.00000% (APR 0.00%).
The daily rate for All Other Purchases, that do not include a Phone Purchase, is .08217% (APR 29.99%).
A Phone Purchase is any purchase made with your account at the Google Store that includes a phone in the
receipt, and all other items purchased in the same sales transaction, whether or not those items would have
otherwise qualified for a promotional purchase.
All Other Purchases may be referred to as Regular Purchases in your billing statement.
Unless otherwise qualified, the term purchases, as used in this Agreement, includes Phone Purchases and All
Other Purchases.

When We Charge Interest

We charge interest on your purchases from the date you make the purchase until you pay the purchase in full.
See exceptions below.
l

We will not charge you interest during a billing cycle on any purchases if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in that
billing cycle.

l

We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate
to purchases if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due
date in the previous billing cycle.

How We Calculate Interest

We figure the interest charge on your account separately for each balance type. We do this by applying the daily
rate to the daily balance for each day in the billing cycle. A separate daily balance is calculated for the following
balance types, as applicable: Phone Purchases, All Other Purchases and balances subject to different interest
rates, plans or special promotions. See below for how this works.
1 How to get the daily balance: We take the starting balance each day, add any new charges and fees,
and subtract any payments or credits. This gives us the daily balance. Late payment fees are treated as
new All Other Purchases.
2. How to get the daily interest amount: We multiply each daily balance by the daily rate that applies.
3. How to get the starting balance for the next day: We add the daily interest amount in step 2 to the daily
balance from step 1.
4. How to get the interest charge for the billing cycle: We add all the daily interest amounts that were
charged during the billing cycle.
We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest. This charge is added
proportionately to each balance type.

How Fees Work
Late Payment Fee

We will charge this fee if we do not receive the total minimum payment due on your account by 5 p.m. (ET) on
the due date. This fee is equal to:
1. $28, if you have paid your total minimum payment due by the due date in each of the prior six billing
cycles.
OR
2. $39, if you have failed to pay your total minimum payment due by the due date in any one or more of the
prior six billing cycles.
The late payment fee will not be more than the total minimum payment that was due.

2

Minimum Payment Calculation
Your total minimum payment is calculated as follows.
The greater of:
1. $28, or $39 (which includes any past due amounts) if you have failed to pay the total minimum payment due by the due date in any one or more of the
prior six billing cycles.
OR
2. The sum of:
a. Any past due amounts; PLUS
b. 1% of your new balance shown on your billing statement (excluding any Phone Purchase balance and any balance in connection with a special
promotional purchase with a unique payment calculation); PLUS
c. Any late payment fees charged in the current billing cycle; PLUS
d. All interest charged in the current billing cycle; PLUS
e. Any payment due in connection with a special promotional purchase with a unique payment calculation, including but not limited to any payments
required for Equal Pay Financing offers; PLUS
f. 1/6th of each Phone Purchase balance, or such other amount we may offer you at times in connection with a Phone Purchase, rounded to the
whole cent
We round up to the next highest whole dollar in figuring your total minimum payment, except as stated above for Phone Purchases. Your total minimum
payment will never be more than your new balance. Payments required for Phone Purchases and payments in connection with a special promotional purchase
with a unique payment calculation, including Equal Pay Financing promotional purchases, will not be increased to, but may be included in the $28 or $39
minimum amount otherwise due.
Special Promotional Financing Offer Information
At times, we may offer you special financing promotions for certain transactions (“special promotions”). The terms of this Agreement apply to any special
promotion. However, any special promotional terms that are different than the terms in this Agreement and any qualifying purchase requirements will be explained
on promotional advertising or other disclosures provided to you. All offers are subject to credit approval. These promotional offers may not be available at all
times for all purchases. Below is a description of certain special promotions that may be offered.
0% APR Promotions with Equal Monthly Payments (Equal Pay Financing)
When you make a qualifying purchase under an Equal Pay Financing promotion, no interest will be charged on your promotional purchase and equal monthly
payments are required equal to the total promotional purchase amount divided equally by the number of months in the promotional period until the promotional
purchase is paid in full. The equal monthly payment will be rounded to the whole cent and may be higher or lower than the minimum payment that would be
required if the purchase was a non-promotional purchase. For example, if you make a $1,000 purchase that qualifies for an Equal Pay Financing offer, your
required equal monthly payments will be $41.67. Alternatively, if you make a $400 purchase that qualifies for an Equal Pay Financing offer, your required equal
monthly payments will be only $16.67, and will not be increased to the $28 or $39 minimum monthly payment that would be otherwise due.
Deferred Interest Promotions with Minimum Monthly Payments
l

No Interest if Paid in Full Within 6 Months

l

No Interest if Paid in Full Within 12 Months

For each promotion, if the promotional balance is not paid in full within the promotional period,
interest will be imposed from the date of purchase at the Purchase APR that applies to your
account when the promotional purchase is made.
At the time your account is opened, the Purchase APR is 29.99%.

When you make a qualifying purchase under a Deferred Interest promotion, no interest will be charged on the promotional purchase if you pay the promotional
purchase in full within the applicable promotional period. If you do not, interest will be assessed on the promotional purchase from the purchase date. Minimum
monthly payments are required. Regular account terms apply to non-promotional purchases and, after promotion ends, to promotional purchases.

3

SECTION III: STANDARD PROVISIONS
GOOGLE STORE FINANCING CREDIT CARD ACCOUNT AGREEMENT
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement. This is an Agreement between you and Synchrony Bank, 170 Election Road Suite 125, Draper, UT 84020, for your credit card account
shown above. By opening or using your account, you agree to the terms of the entire Agreement. The entire Agreement includes the four sections of
this document and the application you submitted to us in connection with the account. These documents replace any other agreement relating to your
account that you or we made earlier or at the same time.
Parties To This Agreement. This Agreement applies to each accountholder approved on the account and each of you is responsible for paying the full
amount due, no matter which one uses the account. We may treat each of you as one accountholder and may refer to each of you as “you” or “your.”
Synchrony Bank may be referred to as “we,” “us” or “our.”
Changes To This Agreement. We may change, add or delete terms of this Agreement, including interest rates, fees and charges.
Special Promotions. The terms of this Agreement apply to any special promotion. However, any special promotional terms that are different than the
terms in this Agreement will be explained on promotional advertising or other disclosures provided to you.
HOW TO USE YOUR ACCOUNT/CARD
Use Of Your Account. You may use your account only for lawful personal, family or household purposes. You may use your account for purchases
from Google-branded sites such as Google Store and Google Shopping.
You Promise To Pay. You promise to pay us for all amounts owed to us under this Agreement.
Your Responsibility. Each accountholder will receive a card. You may not allow anyone else to use your account. If you do, or if you ask us to send a
card to someone else, you will be responsible for paying for all charges resulting from their transactions.
Purchase Limits. To prevent fraud, we may limit the number or dollar amount of purchases you can make in any particular amount of time. We also
may decline any particular charge on your account for any reason.
Credit Limit. You will be assigned a credit limit that we may increase or decrease from time to time. If we approve a purchase that makes you go over
your credit limit, we do not give up any rights under this Agreement and we do not treat it as an increase in your credit limit.
HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due. You must pay at least the total minimum payment due on your account by 5 p.m. (ET) on the due date of each billing cycle.
Payments received after 5 p.m. (ET) will be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without
any additional charge for prepayment. If you have a balance subject to interest, earlier payment may reduce the amount of interest you will pay. We may
delay making credit available on your account in the amount of your payment even though we will credit your payment when we receive it.
Payment Options. You can pay by mail or online. We may allow you to make payments over the phone but we will charge you a fee to make expedited
phone payments. Your payment must be made in U.S. dollars by physical or electronic check, money order or a similar instrument from a bank located
in the United States.
How To Make A Payment. You must follow the instructions for making payments provided on your billing statement. If you do not, credit of your
payment may be delayed up to five days. Your billing statement also explains how information on your check is used.
Payment Allocation. We will apply the required total minimum payment to balances on your account using any method we choose. Any payment you
make in excess of the required total minimum payment will be applied to higher APR balances before lower APR balances. Applicable law may require
or permit us to apply excess payments in a different manner in certain situations, such as when your account has a certain type of special promotion.
INFORMATION ABOUT YOU
Using And Sharing Your Information. When you applied for an account, you gave us and Google, Inc. information about yourself that we could share
with each other. Google, Inc. will use the information in connection with the credit program and for things like creating and updating its records and
offering you special benefits. More information about how we use and share information is set forth in the privacy policy for your account.
Address/Phone Change. You represent that any phone number that you provide to us belongs to you and/or that you are authorized to provide that
number. You also agree to tell us right away if you change your address or any phone number.
Consent To Communications. You consent to us, as well as any other owner or servicer of your account, contacting you through any channel of
communication and for any purpose, as permitted by applicable law. For informational, servicing, fraud, or collection related communications, you agree
that we may use the phone numbers that you provide to us to contact your cellular phone or wireless device with text messages, artificial or prerecorded
voice calls, and calls made by an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent applies even if you
are charged for the call under your plan. You are responsible for any charges that may be billed to you by your communications carrier when we contact
you. Message and data rates may vary. We and any carrier are not liable for delayed or undelivered messages. If you have questions, please call the
number on the back of your card.
Telephone Monitoring. For quality control, you allow us to listen to and/or record telephone calls between you and us.
IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing Your Account. You may close your account at any time by sending a letter to the address shown on your billing statement or calling customer
service. We may close your account at any time, for any reason. If your account is closed, you must stop using it. You must still pay the full amount
you owe and this Agreement will remain in effect until you do.
Collection Costs. If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection costs. These
include court costs and reasonable attorneys’ fees.

4

Credit Bureau Reporting. We may report information about your account to credit bureaus. Late payments, missed payments, or other defaults on
your account may be shown in your credit report. Tell us if you think we reported wrong information about you to a credit bureau. Write to us at P.O.
Box 965024, Orlando, FL 32896-5024. Tell us what information is wrong and why you think it is wrong. If you have a copy of the credit report that
includes the wrong information, send us a copy.
Default. You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt or insolvent. If you default
or upon your death, we may (a) request payment of the full amount due right away, (b) take legal action to collect the amounts owed, and/or (c) take
any other action allowed.
Disputed Amounts. The billing rights summary in section IV of this Agreement describes what to do if you think there is a mistake on your
bill. If you send us correspondence about a disputed amount or payment, you must send it to the address for billing inquiries. We do not
give up any rights under this Agreement if we accept a payment marked “payment in full” or given with any other conditions or limitations.
Unauthorized Use. If your card is lost, stolen or used without your consent, call us immediately at 1-866-794-8802. You will not be liable for unauthorized
use on your account, but you will be responsible for all use by anyone you give your card to or allow to use your account.
IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment. We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including our rights to payments. We
do not have to give you prior notice of such action. You may not sell, assign or transfer any of your rights or duties under this Agreement or your account.
Enforceability. If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.
Governing Law. Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are governed by federal law
and, to the extent state law applies, the laws of Utah without regard to its conflicts of law principles. This Agreement has been accepted by us in Utah.
Waiver. We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do not give up the same right
in another situation.
RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST
DISPUTES BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A
JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING;
(3) LESS INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1. CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you (including
any other user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees) that directly or indirectly arises
from or relates to your account, your account Agreement or our relationship, except as noted below. In addition, Google, Inc. and/or any assignee,
agent, or service provider of ours that collects amounts due on your account are intended beneficiaries of this Arbitration section and may enforce
it in full (notwithstanding any state law to the contrary).
2. This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence, constitution,
statute, regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if they arose before
this section took effect. You may not sell, assign or transfer a claim.
3. Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the
Agreement (such as any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an
application for or denial of credit, any product or service provided by us or third parties in connection with the Agreement, credit reporting, benefit
programs related to your account including any reward program, the collection of amounts due by our assignees, service providers, or agents
and the manner of collection.
4. However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an
individual case in that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any
claim made by a new party or any claim later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to
assert a class, representative or multi-party claim. Arbitration may be requested at any time, even where there is a pending lawsuit, unless a trial
has begun, or a final judgment entered.
5. Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any
dispute that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
6. NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO
PARTICIPATE IN A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN
ARBITRATION, EITHER AS A CLASS REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF
ANY OTHER PERSONS EXCEPT ACCOUNTHOLDERS ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF
OF ANY ACCOUNTHOLDER WHO IS NOT AN ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS
ON YOUR ACCOUNT MAY BE JOINED IN A SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
7. PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit
or in papers filed in the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission,
KS 66201-5320, ATTN: ARBITRATION DEMAND. The party seeking arbitration must select either the American Arbitration Association (AAA), 120
Broadway, Floor 21, New York, NY 10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com, to
administer the arbitration. If neither administrator can handle the dispute, a court with jurisdiction will appoint an arbitrator.
8. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years
of legal experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an individual
action in court, but may use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a court would
apply if the matter were pending in court.
9. The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court,
including, without limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and
declaratory relief (but only in favor of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s
individual claim). The parties will bear the fees and costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority
to award fees and costs of attorneys, witnesses and experts to the extent permitted by the Agreement, the administrator’s rules or applicable law.
10. The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or
arbitrator charges if you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs
required by the administrator’s rules or that are necessary for this Arbitration section to be enforced.
11. GOVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless
otherwise stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may
enter judgment upon the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and cannot
be used in any other case except to enforce the award.

5

12. SURVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement
or your account or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If
this Arbitration section conflicts with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
13. SEVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain
in force with the following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that
determination is not reversed on appeal, then this Arbitration section shall be void in its entirety. Second, if a court determines that a public injunctive
relief claim may proceed notwithstanding the “No Class Actions” provision, and that determination is not reversed on appeal, then the public
injunctive relief claim will be decided by a court, and any individual claims will be arbitrated. The parties will ask the court to stay the public injunctive
relief claim until the other claims have been finally concluded.
14. HOW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject this
section, send us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The notice must
include your name, address, account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012, Orlando, FL
32896-5012. This is the only way you can reject this section. Rejecting this Arbitration section will not affect any other provision of the Agreement.
It will also not affect any prior arbitration agreement or dispute resolution provision between you and us, which will remain in full force and effect.
If you don't reject this Arbitration section, it will be effective as of the date of the Agreement and will supersede any prior arbitration agreement
between you and us that would otherwise be applicable.

SECTION IV: OTHER IMPORTANT INFORMATION
GOOGLE STORE FINANCING CREDIT CARD ACCOUNT AGREEMENT
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the
credit card agreement posted online or provided to the CFPB.

FR833282333_GOOGLE STORE FINANCING CREDIT CARD
TC PLCC PDF WF1419227A
10/19
6

